SIDLEY AUSTIN LLP
555 WEST FIFTH STREET
LOS ANGELES, CA 90013
+1 213 896 6000
+1 213 896 6600 FAX
JCANDRE@SIDLEY.COM
AMERICA • ASIA PACIFIC • EUROPE

(213) 896-6007

June 3, 2020
The Honorable Scott Harris
Clerk, Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

David Shinn v. George Russell Kayer, No. 19-1302 *** CAPITAL CASE ***

Dear Mr. Harris:
We represent the respondent, George Kayer, in the above-referenced matter.
The petition for a writ of certiorari was filed on May 15, 2020. Respondent’s brief in
opposition is currently due on or before June 19, 2020. Respondent respectfully requests, under
Rules 15.3 and 30.4, an extension of thirty days, to and including July 19, 2020, to file its brief in
opposition.
This extension is necessary due to ongoing difficulties relating to COVID-19, which has
complicated counsel’s preparations and impaired coordination with co-counsel and the client.
Petitioner consents to the requested extension.
As indicated by the enclosed certification of service, we have concurrently served a copy
of this letter upon counsel for the petitioner.
Thank you for your consideration of this request.
Very truly yours,

Jean-Claude André
cc:

Oramel H. Skinner, Esq.

Sidley Austin (CA) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

